             September 24, 1998


             ALLEN R. KANE
             CHIEF MARKETING OFFICER AND SENIOR VICE
             PRESIDENT

             SUBJECT: Distribution of Celebrate the Century Ballots
                      (Audit No. RG-MA-98-006)


             This final Management Advisory Report summarizes the results
             of our review of a Hotline complaint from a letter carrier stating
             that “Postal Management” was requiring letter carriers to
             deliver Celebrate the Century (CTC) Official Ballots to postal
             patrons without the required postage. We have summarized
             your comments after each suggestion in this report and included
             the comments as an attachment.

             Management’s comments were generally responsive to the
             issues and suggestions raised in this report. Your planned
             action on the first suggestion is responsive and satisfies the
             overall intent. However, we will need confirmation of the
             revision to the “Employee Guide Book Celebrate the Century,”
             when it is issued in November 1998. With regard to the second
             suggestion, we agree with the actions planned but believe that
             the advice to the Area Stamp and Retail facilitators should also
             be in writing to ensure the guidance is disseminated to all
             affected field offices.

Background   The Postal Service CTC Program is the first official 20th
             Century Commemorative stamp program the public can vote
             on. The Citizens Stamp Advisory Committee recommended the
             stamp subjects for the period 1900-1940s and the postmaster
             general approved the selection. In February and May 1998 the
             public voted on subjects for the 1950s and 1960s stamp series,
             respectively. These stamps will be available for sale in 1999.
             For every 3 months, beginning in February 1998 until the year
             2000 the public will be voting on their favorite subject by
             filling out and mailing in paper ballots. The next voting for the
             1970s begins in September 1998. Voting for the 1980s and
             1990s will take place over the next year.
Distribution of Celebrate the Century Ballots	                                  RG-MA-98-006




Observation	                    Postal Service Handbooks do not provide guidance to staff on
                                ballot distribution for the CTC program

                                We spoke with the Stamp Services headquarters staff to
                                determine if carriers were indeed required to deliver these
                                ballots. We were informed that these ballots were not intended
                                to be delivered but were intended to be placed in post office
                                lobbies for pickup by postal patrons interested in voting for
                                their favorite stamps.
                                The Postal Service employee instructions for CTC were
                                outlined in the “Employee Guide Book for Celebrate the
                                Century.” However, Postal Service staff stated that it does not
                                address ballot distribution. Furthermore, this guidebook was
                                only circulated to all post offices, stations and branches and was
                                not disseminated to contract stations (e.g. retail postal services
                                offered in contract locations).
                                We contacted Postal Service officials to identify any mail
                                instruction handbooks that address ballot distribution.
                                According to Postal Service officials, the only references they
                                could locate were in Handbook M-41, Manual City Delivery
                                Carriers Duties and Responsibilities, which was issued on
                                March 1, 1998. Section 261.22, Postage Due, of the M-41
                                Handbook states that:
                                        “All postal employees are expected to protect postal
                                        revenue. All postage-due items found in the mail should
                                        be brought to the finance window for postage
                                        accounting.”
                                Also, Section 131.23 states that:
                                        “When you find in a mail receptacle mailable matter on
                                        which postage has not been paid, addressed to, or
                                        intended for the person in whose receptacle it is
                                        deposited, take the matter to the Post Office for
                                        treatment as provided in Section 146.2, Postal Service
                                        Manual.”
                                However, neither section specifically addresses ballot
                                distribution.
                                Postal Service officials also cited Handbook DM-103, Official
                                Mail. Section 341 of the Handbook, issued in February 1998
                                states that:
                                        “All postal units may use the Postal Service’s G-10
                                         permit imprint...”
                                              2
                                   Restricted Information
Distribution of Celebrate the Century Ballots	                                    RG-MA-98-006


                                The G-10 permit imprint allows postal units to mail large
                                volume mailings and individual pieces of outgoing mail. Postal
                                Service staff stated that the CTC ballot did not have the G-10
                                permit imprint on it nor did it have any other form of postage.

                                Consequently, Postal Service staff was unable to locate any
                                instruction that specifically referenced ballot distribution.

                                Stamp Service staff advised that they meet quarterly with postal
                                staff for a CTC update and to promote the program. They
                                believe that it is essential to the success of this newly sponsored
                                3-year program that the public is aware of and votes on these
                                subjects.

Conclusion	                     As evidenced by the complaint we received, carriers may be
                                encouraged to incorrectly distribute CTC ballots. Because the
                                CTC program will continue for several years, this issue needs
                                immediate attention to prevent misuse and protect revenue
                                integrity. Postal Service staff was unable to locate any
                                instructions that specifically addressed the distribution of CTC
                                ballots. Therefore, Postal Service management should provide
                                specific guidance to supervisors and carriers to prevent
                                incorrect ballot distribution and to remind all post office
                                employees (including carriers) that delivery of any material
                                without proper postage is prohibited, including ballots to postal
                                customers.

OIG Suggestions	                Specifically, we suggest that:
                                1.	 The “Employee Guide Book Celebrate the Century”
                                    should be revised to address ballot distribution to the
                                    public.
                                    Management's Response
                                    The Employee Guidebook for Celebrate the Century will be
                                    updated in November 1998, providing explicit instructions
                                    regarding the last two voting periods of the program, the
                                    1980s and 1990s. These voting periods will take place
                                    respectively in February 1999 and May 1999. At the
                                    national meeting in July, management announced the
                                    importance of following proper procedures.
                                    (Management’s verbatim comments are included in
                                    Attachment 1.)
                                    Evaluation of Management's Response
                                    This action will satisfy the intent of our suggestion. We
                                    will need confirmation of the revision to the “Employee
                                              3
                                   Restricted Information
Distribution of Celebrate the Century Ballots	                                      RG-MA-98-006


                                      Guide Book Celebrate the Century,” when it is issued in
                                      November 1998.

                                2.	 Also, the “Employee Guide Book Celebrate the
                                    Century” should be distributed to all offices that contain
                                    CTC ballots and handle other promotional material
                                    related to this program.

                                      Management's Response

                                      Contract stations are not participating in the Celebrate the
                                      Century program; therefore, they did not receive
                                      promotional materials nor ballots.

                                      Additionally, USPS advised Area Stamp and Retail
                                      facilitators of this issue and asked them to share this
                                      information with their local offices.

                                      Evaluation of Management's Response

                                      Emphasizing the importance of following proper procedures
                                      at national meetings and as indicated in the response above
                                      is a plausible intermediary solution. We suggest that such
                                      communications also be made in writing. Additionally, as
                                      soon as the updated guidebook is finalized, management
                                      should ensure proper distribution to all affected field offices.
                                      This action is needed to fully satisfy our audit suggestion.

                                We appreciate the cooperation and courtesy extended to our
                                staff while performing this review. If my staff can be of further
                                assistance, please contact                  ,
                                                 , or me at (703) 248-2300.



                                Sylvia L. Owens
                                Assistant Inspector General
                                 for Revenue/Cost Containment

                                Attachment
                                cc:




                                              4
                                   Restricted Information
Distribution of Celebrate the Century Ballots              RG-MA-98-006


Major contributors to this report:




                                             5
                                  Restricted Information
